                                  EVALUATION




 BUREAU OF LAND MANAGEMENT,
 NATIONAL PARK SERVICE, AND
 OFFICE OF SURFACE MINING
 RECLAMATION AND ENFORCEMENT’S
 SAFETY OF DAMS:
 EMERGENCY PREPAREDNESS




Report No.: WR-EV-MOA-0015-2011   December 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OFTHE INTERIOR

                                                                              DEC 2 7 2012
Memorandum

To:            Rhea Suh
               Assistant Secretary for Policy, Management and Budget

               Marcilynn A. Burke
               Acting Assistant Secretary for Land and Minerals Management

               Rachel Jacobson
               Acting Assistant Secretary for Fish and Wildlife and Parks

From:          Mary L. Kendall
               Deputy Inspector Genera

Subject:       Final Evaluation Report - Bureau of Land Management, National Park Service,
               and Office of Surface Mining Reclamation and Enforcement's Safety of Dams:
               Emergency Preparedness
               Report No. WR-EV-MOA-0015-2011

      This memorandum transmits the results of our evaluation of the Bureau of Land
Management's (BLM), National Park Service's (NPS), and Office of Surface Mining
Reclamation and Enforcement's (OSM) emergency preparedness at their high hazard dams.

       High hazard dams under the purview of BLM, NPS, and OSM either have no requirement
for emergency action plans (EAP) or have EAPs that have been inadequately exercised or
reviewed or that have not been formalized. In addition, we found an absence of a uniform
approach to monitoring high hazard dams not owned by BLM or NPS but located on BLM and
NPS lands. We include 11 recommendations in our report that, if implemented, will help to
improve emergency action planning at the three bureaus.

        Based on the U.S. Department of the Interior's November 9, 2012 response to the draft
report, we consider all 11 recommendations to be resolved but not implemented. We will refer
these recommendations to the Office of Policy, Management and Budget to track
implementation.

        The legislation, as amended, creating the Office of Inspector General requires that we
report to Congress semiannually on all audit report issues, actions taken to implement our
recommendations, and recommendations that have not been implemented.

     A response to this report is not required. If you have any questions regarding this
memorandum or the subject report, please do not hesitate to contact me at 202-208-5745.




                               Office of Inspector General I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1


Introduction ............................................................................................................. 2

   Objective ............................................................................................................. 2

   Background ......................................................................................................... 2

      Emergency Action Plans ................................................................................. 2

      USBR Evaluation Report................................................................................. 2

      High Hazard Dams on OSM, BLM, and NPS Land........................................ 3

      Criteria ............................................................................................................. 3


Findings................................................................................................................... 5

   OSM Not Requiring EAPs .................................................................................. 5

   BLM Not Adequately Preparing, Exercising, Reviewing, and Updating EAPs . 6

   NPS Has Only Interim EAPs in Place................................................................. 7

   No Written Policy for After-Action Reports at BLM, NPS, and OSM .............. 8

   Dams Not Owned by BLM or NPS but Located on Their Lands May Pose a
   Liability ............................................................................................................... 9


Conclusion and Recommendations....................................................................... 12

   Conclusion......................................................................................................... 12

   Recommendations ............................................................................................. 13

      OSM............................................................................................................... 13

      BLM............................................................................................................... 13

      NPS................................................................................................................ 15

      BLM, NPS, and OSM.................................................................................... 15

      Dams Not Owned by BLM............................................................................ 16

      Dams Not Owned by NPS ............................................................................. 16


Appendix 1: Objective, Scope, and Methodology................................................ 19

   Objective ........................................................................................................... 19

   Scope ................................................................................................................. 19

   Methodology ..................................................................................................... 19

Appendix 2: Office of Policy, Management and Budget Response ..................... 21


Appendix 3: Status of Recommendations............................................................. 30

Results in Brief
The Bureau of Land Management (BLM), National Park Service (NPS), and
Office of Surface Mining Reclamation and Enforcement (OSM) manage or
regulate 838 dams throughout the United States. The bureaus classify 29 of these
dams as high hazard, which means failure of the dams could result in loss of life.
BLM and NPS lands also have 324 privately owned dams, of which 133 are high
hazard dams. OSM does not know how many high hazard dams are in the non-
Federal Program. A Bureau of Reclamation official informed us that an average
of four dam safety incidents 1 occur annually at the 584 dams the U.S. Department
of the Interior (DOI) classifies as high hazard or significant hazard (dams whose
failure would not cause a loss of life but could result in significant economic
loss). At a minimum, DOI’s “Departmental Manual” requires that a bureau’s dam
safety program include an emergency action plan (EAP) for all of its high and
significant hazard dams. We examined the extent to which OSM, BLM, and NPS
meet this requirement.

Even though DOI’s “Departmental Manual” requires EAPs to be in place, OSM,
BLM, and NPS either do not require high hazard dams under their purview to
have EAPs or, for those dams that have EAPs, the bureaus do not ensure that the
EAPs have been adequately exercised 2 or reviewed or that they have been
formalized. Specifically, OSM does not require mining operators to have an EAP
in place. OSM also has not updated its regulations to ensure that mining operators
comply with Federal guidance, 3 including the requirement to have an EAP in
place. In addition, BLM is not adequately documenting annual EAP reviews and
has one EAP that was not prepared or exercised in accordance with Federal
Emergency Management Agency and Bureau guidelines. Further, NPS does not
have formal EAPs in place and is currently using interim EAPs. We also noted
that none of the three bureaus had written policies requiring that after-action
reports be prepared following EAP exercises and that any recommended
corrective actions in these reports be tracked for implementation.

During our review, we also found an absence of a uniform approach to monitoring
privately owned, high hazard dams located on BLM and NPS lands, as well as
high hazard non-Federal dams over which OSM has no direct regulatory
jurisdiction. BLM, NPS, and OSM do not have a requirement to directly regulate
such dams. We believe, however, that it is important for us to both alert DOI to
the existence of these dams and to provide information on how DOI can better
monitor and enforce health and safety concerns.


1
  A dam safety incident is an unusual event that can put a dam at an increased risk of failure. There are many

types of dam safety incidents, including excessive seepage, floods, and material instability such as cracks and

slides.

2
  An EAP exercise evaluates the emergency response capabilities of those personnel that would be involved

in the emergency operations at the dams.

3
  Federal Emergency Management Agency, “Federal Guidelines for Dam Safety,” April 2004.



                                                                                                              1
Introduction
Objective
Our objective was to determine if emergency action plans (EAP) are in place,
reviewed, updated, and exercised appropriately for the high hazard dams of the
Bureau of Land Management (BLM), National Park Service (NPS), and Office of
Surface Mining (OSM). See Appendix 1 for the scope, methodology, and original
objective of the evaluation.

Background
The U.S. Department of the Interior (DOI) protects and manages 500 million
acres, or about 20 percent, of the Nation’s land. This responsibility includes
managing and ensuring dam safety for the more than 2,600 dams owned by DOI.
To this effect, DOI’s “Departmental Manual” requires that EAPs be prepared for
all high and significant hazard dams. A high hazard dam could result in the loss of
one or more lives in the event of failure. A significant hazard dam has no potential
for loss of life but has a potential for significant economic loss in the event of
failure.

Emergency Action Plans
EAPs are formal, living documents. They identify potential emergency conditions
at a dam and specify actions for dam operating personnel to follow during
emergencies or unusual occurrences. The purpose of an EAP is to minimize the
loss of life and property damage and provide proper notification to downstream
authorities.

USBR Evaluation Report
We issued an evaluation report on the Bureau of Reclamation’s (USBR’s) dams in
February 2012. 4 In our evaluation, we identified National critical infrastructure
dams that ranged in storage capacity from 1 million to nearly 29 million acre-feet,
with major loss of life and property if there was a dam failure. The storage
capacities of BLM, NPS, and OSM high hazard dams are smaller than those of the
USBR dams we reviewed in our recent evaluation. These dams, however, still
pose potential for loss of life. The high hazard dam inventories for BLM, NPS,
and OSM disclosed the following:

    •	 The largest BLM dam has a capacity of 1,739 acre-feet, with four
       residences, one building, and two roads at risk if this dam should fail.
    •	 The largest NPS dam has a capacity of 700 acre-feet, with a parkway, a
       picnic area, and other park structures at risk if this dam should fail.
    •	 The largest dam regulated under the OSM Federal program has a capacity
       of 25,260 acre-feet and a potential loss of life if the dam should fail.

4
 USBR, “Bureau of Reclamation’s Safety of Dams: Emergency Preparedness,” Report No. WR-EV-BOR-
0007-2011, February 2012.


                                                                                                 2
According to a USBR hazard potential classification report, 309 fatalities resulted
from all dam failures in the United States since 1960. About 270—87 percent—of
these lives were lost because of the failure of dams storing less than 1,000 acre-
feet and measuring less than 50 feet in height. Of the 270 fatalities, 125 lives were
lost due to one event: a 1972 coal mine dam failure in West Virginia. This
impoundment failure was a major factor in the enactment of the Surface Mining
and Control Reclamation Act (SMCRA), which established OSM in 1977.

High Hazard Dams on OSM, BLM, and NPS Land
OSM regulates 69 dams, of which 10 are high hazard, in nonprimacy States. Non-
primacy status indicates that the State did not choose to exercise its primacy or
may not be able to carry out a satisfactory regulatory program. In non-primacy
States, OSM directly regulates the safety of dams. OSM also has an unknown
number of high hazard dams under primacy States. Primacy States have an OSM-
approved regulatory program and have direct regulatory responsibility over
mining operations subject to OSM oversight.

Of BLM’s 671 dams, 8 are high hazard. In addition, approximately 300 privately
owned dams exist on BLM lands. Of these dams, 125 are high hazard dams and
permitted through legal agreements between the dam owners and BLM.

NPS has 98 dams, of which 11 are high hazard. In addition to these 98 dams,
there are 24 non-NPS owned dams whose failure could pose varying levels of
health and safety risks to National parks. Of these 24 structures located on NPS
lands, 8 are high hazard. NPS has begun to review each of the non-NPS-owned
dams located on NPS lands to determine how these dams came to exist on NPS
land and if there are any legal agreements in place between the dam owners and
NPS. Further, we were informed that there are an unknown number of non-NPS
owned dams located upstream of National parks, but outside the parks’
boundaries, that pose a threat to park resources. 5

Criteria
The Federal Emergency Management Agency’s “Federal Guidelines for Dam
Safety” (FGDS) and Part 753 of DOI’s “Departmental Manual” (DM) require that
bureau dam safety programs prepare, review, and update EAPs for high hazard
dams. DM Part 753 specifies that EAP reviews and updates be performed at least
annually. The annual review and update should make any changes to notification
of personnel, procedures, and telephone numbers. In addition, DM Part 753
requires that EAPs be tested every 5 years to ensure that the plans will function
satisfactorily in the event of an actual emergency.

5
  The Government Accountability Office (GAO) has issued two reports on the adverse effects of external
threats to park resources—“National Park Service: Activities Outside Park Borders Have Caused Damage to
Resources and Will Likely Cause More” (GAO/RCED-94-59, January 1994) and “Parks and Recreation:
Limited Progress Made in Documenting and Mitigating Threats to the Parks” (GAO/RCED-87-36, February
1987). GAO reported that NPS has no complete inventory of existing external threats or the actions being
taken to mitigate them.


                                                                                                       3
BLM and NPS incorporated the FGDS and DM Part 753 emergency action
planning requirements into “BLM Manual 9177” and Director’s Order #40,
respectively. OSM’s Technical Services and Research directive, TSR-15,
generally meets the requirement for the preparation of an EAP at a non-primacy
State for dams with disclosed potential hazards.




                                                                                 4
Findings
We found that OSM, BLM, and NPS either have no requirement for EAPs to be
in place for all high hazard dams under their purview, or have not adequately
reviewed, exercised, or formalized the EAPs that are in place. We also found that
all three bureaus do not have a written policy requiring that after-action reports be
prepared following EAP exercises and that any recommended corrective actions
in these reports be tracked for implementation. In addition, BLM and NPS do not
have a standard approach to monitoring privately owned, high hazard dams
located on their lands.

OSM Not Requiring EAPs
OSM has not updated its regulations to ensure that mining operators in the non-
primacy and primacy States are complying with the FGDS, including the
requirement to have an EAP in place. The FGDS and DOI’s DM Part 753 apply to
OSM’s dam safety program in the non-primacy States. In contrast, these
authorities do not apply to dams in the primacy States, over which OSM has no
direct regulatory authority. While OSM is not required to impose the FGDS upon
mining operators in the primacy States, OSM does have the authority under
SMCRA to adopt regulations establishing minimum environmental “performance
standards” applicable to the primacy States. If OSM adopted performance
standards, such standards could incorporate the requirements of the FGDS,
including the preparation of an EAP.

Because emergency management programs are not included in OSM’s SMCRA
regulations, OSM’s Assistant Director for Program Support contends that OSM
has no requirement for EAPs to be in place, reviewed, updated, and exercised. A
USBR April 2010 Independent Oversight Review (IOR) report 6 stated that OSM’s
directive TSR-15, dated August 14, 1996, clearly establishes a safety program for
dams under the Federal Program. 7 The TSR-15 meets several essential
requirements for a dam safety program consistent with the FGDS, including
inventorying dams and preparing EAPs. The April 2010 IOR report noted,
however, that the TSR-15 appears to limit the requirement of preparing an EAP to
dams with disclosed potential hazards. The IOR team “strongly believes that
waiting to develop an EAP until a hazardous condition develops is contradictory
to a fundamental [tenet] of the FGDS. Namely, that all dams with potential loss of
life consequences have an EAP in place regardless of their current condition
assessment.” Lastly, the April 2010 IOR report concluded that the TSR-15 did not
appear to have been widely distributed and many OSM staff and managers were
not familiar with it.

6
  “U.S. Department of the Interior 2010 Independent Oversight Review Report: Office of Surface Mining

Reclamation and Enforcement Dam Safety Program and Dam Security,” April 2010.

7
  The Federal Program refers to dams that OSM regulates in the non-primacy States and on Federal land. The

non-Federal Program refers to dams that primacy States regulate.



                                                                                                         5
We issued a Notice of Potential Finding and Recommendations dated June 7,
2012, regarding the weaknesses of OSM’s TSR-15. OSM’s Assistant Director
informed us that OSM was “in the process of revising Directive TSR-15 to update
terminology, correct errors, and remove obsolete provisions,” and OSM’s
directives system only establishes internal policies and procedures for OSM
employees, not to mining operators.

Having an EAP in place is fundamental in emergency action planning. Not having
an EAP exposes OSM to liability due to the increased risk of potential loss of life
and property damage. Without an EAP, dam operating personnel may not be able
to identify a potential emergency condition and respond accordingly. In addition,
dam operating personnel may not be able to properly notify downstream
authorities or communities about an emergency.

Recommendations

   1. OSM establish a timeline and deadline for updating, as appropriate,
      OSM regulations to include FGDS requirements for the non-primacy
      and primacy States.
   2. OSM enforce and revise, as appropriate, the TSR-15 requirements so
      that the directive aligns with the actions resulting from OSM’s review
      and update of its regulations conducted under Recommendation 1.


BLM Not Adequately Preparing, Exercising,
Reviewing, and Updating EAPs
BLM prepared all but one of its eight EAPs for high hazard dams following
Federal and DOI guidelines, and all but three were tested (or exercised) for
adequacy and effectiveness of the EAP. Not one of the eight EAPs, however, are
adequately reviewed and annually updated. For example, the Little Robber Dam
EAP was not prepared in accordance with the FGDS, which BLM has
incorporated into the other EAPs. It lacks official signatures and critical elements
such as notification flow charts, guidance outlining inspection frequency, and
remedial actions for preventing potential dam failure situations.

In addition, EAPs for the Little Robber Dam in Wyoming, the Hult Pond Dam in
Oregon, and the Rock Creek Dam in Oregon have not been properly exercised:

   •	 The Little Robber Dam EAP was not exercised at the time of development
      or before a dam incident that occurred in April 2011.
   •	 The Hult Pond Dam EAP was not exercised at the time of development or
      before a dam incident that occurred in January 2012; it has had only an
      orientation seminar exercise, which is generally focused as an EAP
      familiarization exercise.



                                                                                   6
    •	 The Rock Creek Dam, classified as high hazard, has also had only an
       orientation seminar exercise.

BLM Manual 9177 requires an EAP exercise every 3 years that includes a test
scenario and telephone or radio contact of all parties potentially affected by the
EAP. Exercising an EAP identifies areas within the plan that need correction to
ensure that the plan will be effective in case of an emergency.

We found that none of the eight BLM EAPs have been fully reviewed for updates.
For example, our review of BLM’s “Yearly EAP Updating Documentation”
tracking sheet revealed that only the telephone lists included in the EAPs were
reviewed and updated but not the rest of the document. “BLM Manual 9177”
states that, at a minimum, EAPs are to be checked annually for accuracy and
“updated as warranted by changes in downstream land use.” Limiting the annual
review and update of the EAPs to just the telephone directory precludes an overall
review of the EAP to determine, for example, if the emergency procedures or
inundation maps need to be updated as a result of significant changes in the use of
the land.

Recommendations

    3. BLM ensure that EAPs are exercised within 3 years of development, in
       accordance with the BLM Manual.
    4. BLM correct Little Robber Dam’s EAP and ensure that EAPs are
       prepared in accordance with FGDS.
    5. BLM ensure that the entire EAP document is reviewed annually for
       accuracy and updated accordingly.


NPS Has Only Interim EAPs in Place
NPS has no formal EAPs in place for its high hazard dams. Instead, NPS currently
has interim EAPs in place. Because of the interim nature of these plans, the
documents lack inundation maps, which are a required component of an EAP. In
addition, an NPS dam safety officer reported in a July 2011 technical paper 8 that
most of the interim EAPs do not provide adequate emphasis on the planning for
prompt response to mobilize expertise, equipment, and materials to the site to take
physical actions to save the dam. NPS dam safety program officials informed us
that they have developed a 3-year plan, from 2012 through 2014, to formalize the
EAPs for its high hazard dams. We were told this initiative is currently underway.

We commend NPS for beginning the process of formalizing their EAPs, and for
recognizing the need for emergency preparedness to reduce the risk for potential
loss of life and property damage for park staff, visitors, and downstream

8
 “Heroic Planning: Strategies for Taking Physical Actions at Dams to Prevent Failures,” presented to the
Association of State Dam Safety Officials, Annual Conference, Washington, DC, September 2011.


                                                                                                           7
communities. The July 2011 technical paper states that dam incidents will
continue to occur, and dam owners can better prepare to respond effectively to the
incidents and prevent dam failures. The technical paper also states that it is
important that dam EAPs include procedures for responding to dam incidents and
to take physical action to prevent dams from failing, if possible. As part of NPS’
efforts to demonstrate the need for emergency preparedness, NPS developed a
video, “Managing the Risks of Dams,” which was debuted during a high hazard
dam exercise we observed in April 2012.

Recommendation

   6. NPS adhere to a timeline and deadline for the completion and exercise
      of formal EAP documents.


No Written Policy for After-Action Reports at BLM,
NPS, and OSM
BLM, NPS, and OSM do not have written policies requiring after-action reports
(AARs) to be prepared following EAP exercises to document the resulting
recommended corrective actions, nor do they have a mechanism to track
recommendation implementation. Of the eight BLM high hazard dams reviewed,
we found only three (Hult Pond, Little Robber, and Rock Creek) had AARs. Hult
Pond had two AARs—one for an actual dam incident that occurred in January
2012 and another for an orientation seminar that occurred in July 2009. Based on
our review of the four AARs, we determined that all were insufficient because
they either lacked recommended corrective actions or contained suggested actions
but no specifics on the implementation and tracking of these actions.

For example, the Little Robber Dam EAP was activated during an incident in
April 2011; the outlet works of the dam failed, resulting in damage to the dam and
an uncontrolled release of water. The AAR for this dam incident did not include a
review to determine the effectiveness of the EAP, and the EAP has not been
updated to incorporate any recommended corrective actions. In addition, the two
Hult Pond EAPs did not include specific dates for implementation or the officials
responsible for the execution of the action items. Finally, the Rock Creek Dam
conducted an orientation seminar exercise for its EAP in September 2011 and
prepared a subsequent AAR. The suggested actions in the AAR, however, did not
contain specific dates or designated officials responsible for implementation.

BLM, NPS, and OSM may find USBR’s directives and standards for AAR
development useful in creating their own AAR procedures. USBR’s directives
and standards require each exercise to be documented in an AAR containing
identified strengths, deficiencies, and recommended corrective actions, including
a planned course of action to implement and track the recommended actions. As
USBR states in its “Emergency Planning and Exercise Guidelines,” coming up


                                                                                    8
with recommendations is the whole reason for doing an exercise, as
recommendations are vital to building an improved emergency management
system.

Recommendation

    7. BLM, NPS, and OSM require the preparation and issuance of an AAR
       after each incident or exercise and require the inclusion of a planned
       course of action to implement and track the recommended corrective
       actions in the AAR.


Dams Not Owned by BLM or NPS but Located on
Their Lands May Pose a Liability
BLM and NPS dams located on bureau lands but not owned by BLM or NPS may
pose a potential health, safety, and liability issue for the bureaus. State and local
governments or private landowners may own dams located on BLM and NPS
land. These dams were either constructed on BLM and NPS lands or the dams
were constructed on lands that were later acquired by BLM and NPS.

In July 2012, the Interagency Committee on Dam Safety Task Group on Non-
Federal Dams drafted a position paper. 9 The task group reported that the
responsibility for many of these dams is not clear and regulating authority is
either lacking or inconsistent. Although we did not find evidence that BLM and
NPS have a specific legal duty to inspect and regulate dams they do not own, we
did find that these bureaus could address dam safety in any permit and other land-
use agreement that they issue, and that it would be in their interest to do so. BLM
allows the operation of dams through the issuance of permits or rights-of-way
(ROWs) and has the authority to address safety by including appropriate terms
and conditions to the ROW agreements. In addition, BLM may also change the
terms and conditions of existing ROW agreements if “necessary to protect public
health or safety or the environment.”

In its draft position paper, the task group reported that many of the privately
owned dams on Federal lands were permitted by Federal agencies many years ago
without permit conditions for addressing dam safety. The task group, chaired by
BLM’s dam safety officer for policy in Washington, DC, is currently working to
determine if the identified high hazard non-Federal dams are being inspected and
have EAPs in place. The draft position paper reported that of the 125 non-BLM
owned high hazard dams, only 58 (46 percent) of these dams have been inspected
in the last 5 years, and only 72 (58 percent) of these dams have EAPs in place.


9
  “Non-Federal Dams on Federal Lands: A Position Paper from the Interagency Committee on Dam Safety
Task Group on Non-Federal Dams” (July 2012 draft). The committee’s mission is to provide Federal
leadership to reduce risks to life, property, and the environment from dam incidents in the United States.


                                                                                                             9
According to BLM’s dam safety officer for operations in Lakewood, Colorado,
the current ROW agreements do not require EAPs. To require the establishment
of EAPs, each ROW agreement would have to be amended by BLM’s Realty
Division to incorporate this provision. The FGDS does not directly apply to
BLM’s permitted dams, which are not owned, operated, or regulated by BLM.
The FGDS, however, could be extended to such dams by incorporating the
requirements of the FGDS into individual permits that BLM issues for dam
operations on Federal land.

NPS “Reference Manual 40” provides that non-NPS dams that could have a
detrimental effect on park safety or operations over which NPS managers have no
direct operational responsibility—

         . . . will be monitored carefully and information about them kept
         within the NPS inventory of data base management system. [Also,]
         Regional Directors and Superintendents will request observer
         status during inspections and in the preparation and review of
         emergency action plans at non-NPS dams that significantly affect
         park areas.

“Reference Manual 40” further states: “NPS managers should be constantly alert
to what impact both NPS and non-NPS dams have on park safety and operations.”
According to NPS’ dam safety officer, he is aware of only one NPS park that
participates in non-NPS dam EAP exercises. This park is located downstream
from two Bureau of Indian Affairs dams. The dam safety officer informed us that
he has started contacting the owners and regulators of non-NPS dams to request
that NPS be included in any EAP development and testing efforts.

NPS regularly acquires new lands into the National park system, and occasionally
these lands have existing dams. According to USBR’s November 2009 IOR
report, 10 there is no formal procedure in place to review the safety and condition
of these dams before acquisition. The report suggests that adopting a more formal
process for reviewing these dams could help prevent NPS from acquiring a dam
that will need expensive safety or maintenance improvements.

DM Part 753 suggests that DOI bureaus are responsible for maintaining only an
inventory of their permitted dams that are privately owned but located on bureau
lands. USBR’s October 2009 IOR report 11 on BLM noted a similar point:

         There is no uniform approach in the States or the Federal agencies
         to regulating and inspecting private dams on Federal lands. . . .
         BLM’s current involvement with non-BLM owned dams is limited

10
   “U.S. Department of the Interior 2009 Independent Oversight Review Report: National Park Service Dam

Safety Program and Dam Security Program,” November 2009.

11
   “U.S. Department of the Interior 2009 Independent Oversight Review Report: Bureau of Land 

Management Dam Safety Program and Dam Security,” October 2009.



                                                                                                     10
         to maintaining an inventory of these dams and sharing this
         information with the appropriate State dam safety program.

BLM and NPS may not have a direct responsibility to inspect or regulate privately
owned dams directly on or adjacent to their lands, but it is good management
practice to keep current on the emergency preparedness status and operational
condition of these dams to ensure the health and safety of the general public. In
our opinion, the presence of a privately owned dam on Federal property could
present some level of risk of legal liability to the U.S. Government in the event of
a failure, although the determination of liability would depend on the facts of the
specific incident and other factors. For example, in a February 1985 court case,
NPS was found liable for negligence for failing to prepare an emergency plan for
the potential collapse of a privately owned dam and for not properly warning
campers to evacuate after the dam failed. 12 The court awarded damages of
$480,000 to the family of a man who died in the resulting flood. 13 NPS would not
necessarily incur liability in all, or even most cases, but it nevertheless has some
legal risk with regard to private dams operated on NPS property.

Recommendations

    8. To the extent practicable, as BLM ROW agreements or permits that
       allow for dam operations are reviewed for renewal, amend them to
       include the FGDS requirements or appropriate dam safety and
       emergency preparedness terms and conditions.

    9. Ensure that NPS Regional Directors and Superintendents are
       requesting observer status during inspections and in the preparation
       and review of EAPs at non-NPS dams that could significantly affect park
       areas, in accordance with NPS Reference Manual 40.

    10. Continue BLM and NPS’ efforts in addressing the inventory of non-BLM
        and non-NPS owned dams located on BLM or NPS lands, including
        determining the agreements in place that allow for the existence and
        operation of these dams and determining if these dams are being
        inspected and have EAPs in place.

    11. Revise the “Departmental Manual” to include a uniform approach to
        monitoring and emergency action planning for non-DOI dams located
        on DOI lands.




12
   The July 1982 Lawn Lake Dam failure in Rocky Mountain National Park resulted in the deaths of three 

people and, according to a newspaper article, caused an estimated $30.6 million in damages.

13
   Coates v. United States, 612 F. Supp. 592, 596 (C.D. Ill. 1985).



                                                                                                       11
Conclusion and Recommendations
Conclusion
DOI manages 584 dams that are classified as either high or significant hazard. A
USBR official informed us that an average of four dam incidents occur annually 14
at these dams. Because these dam safety incidents put the public and property at
risk, it is important for BLM, NPS, and OSM to have EAPs in place that have
been properly prepared, exercised, reviewed, and updated to ensure an effective
response to incidents.

EAPs exist to prevent or minimize any potential loss of life and damage to
property. Noting the importance of dam safety, we were concerned to find that
OSM is currently not requiring mining operators in the primacy and non-primacy
States to have an EAP in place. This knowledge is especially surprising because a
primary impetus for the enactment of the SMCRA and, hence, the creation of
OSM was the 1972 coal mine impoundment failure in West Virginia that resulted
in the loss of 125 lives.

In addition, although we commend BLM for having EAPs in place for all of its
high hazard dams, we found areas in the preparing, exercising, reviewing, and
updating of the EAPs where BLM can improve. We were encouraged to learn of
NPS’ current 3-year initiative to formalize its interim EAPs, and we believe that
NPS is committed to the improvement of its dam safety and emergency
preparedness program.

Lastly, although we understand that BLM and NPS do not have a direct
responsibility to inspect or regulate privately owned dams on their lands, staying
informed about the emergency preparedness status and operational condition of
these dams is important for public health and safety. BLM and NPS have
expressed concerns regarding their responsibilities to review appropriate dam
safety and emergency preparedness plans for non-BLM and non-NPS owned
dams because they have neither the regulatory authority over these dams nor the
resources to address their safety. We understand the dam safety officers for BLM
and NPS are participating in the Interagency Committee on Dam Safety Task
Group on Non-Federal Dams to establish a consistent Federal policy for
addressing the safety concerns posed by privately owned dams on Federal lands.
We believe that this is a positive step toward addressing the issues concerning
these dams.




14
   The DOI annual average number of four dam incidents is for the years 1995 through 2009. This annual
average number is probably higher because there is no required uniform method of reporting dam incidents
within DOI. As such, DOI does not have a comprehensive list of dam incidents.


                                                                                                       12
Recommendations
Our recommendations should help DOI monitor the high hazard dams it does not
own, as well as the high hazard dams that BLM, NPS, and OSM are responsible
for managing and regulating.

OSM
We recommend that OSM:

   1.	 Establish a timeline and deadline for updating, as appropriate, OSM
       regulations to include FGDS requirements for the non-primacy and
       primacy States.

       OSM Response: OSM concurred with the recommendation. In
       consultation with the Office of the Solicitor, OSM will conduct a legal,
       technical, and policy review of its authorities under the SMCRA and other
       Federal law then initiate a rulemaking, as appropriate, to incorporate
       specific FGDS requirements. OSM established a target date of May 30,
       2013, to complete the legal, technical, and policy review and a target date
       of December 30, 2014, to publish the final rule, as appropriate. The
       Assistant Director for Program Support is the official responsible for
       implementing the recommendation.

       OIG Reply: We consider this recommendation resolved but not
       implemented (Appendix 3). The recommendation will be referred to the
       Assistant Secretary for Policy, Management and Budget for tracking.

   2.	 Enforce and revise, as appropriate, the TSR-15 requirements so that the
       directive aligns with the actions resulting from OSM’s review and update
       of its regulations conducted under Recommendation 1.

       OSM Response: OSM concurred with the recommendation. OSM will
       revise the TSR-15 directive, as necessary, to reflect the final rule. The
       Assistant Director for Program Support is the official responsible for
       implementing the recommendation by April 30, 2015.

       OIG Reply: We consider this recommendation resolved but not
       implemented (Appendix 3). The recommendation will be referred to the
       Assistant Secretary for Policy, Management and Budget for tracking.

BLM
We recommend that BLM:

   3.	 Ensure that EAPs are exercised within 3 years of development, in 

       accordance with the BLM Manual. 





                                                                                   13
   BLM Response: BLM concurred with the recommendation. The BLM
   dam safety officer will monitor compliance of the requirement to conduct
   EAP exercises within 3 years of development. The Deputy Assistant
   Director for Business and Fiscal Resources and the Director for the
   National Operations Center are the officials responsible for implementing
   the recommendation by March 31, 2013.

   OIG Reply: We consider this recommendation resolved but not
   implemented (Appendix 3). The recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget for tracking.

4.	 Correct Little Robber Dam’s EAP and ensure that EAPs are prepared in
    accordance with FGDS.

   BLM Response: BLM concurred with the recommendation. BLM’s
   Wyoming State engineer and the National Operations Center engineers are
   currently updating the Little Robber Dam EAP to include an official
   signature page and suggested critical elements. BLM will continue to take
   appropriate measures to ensure that other EAPs are consistent with Federal
   and DOI guidelines. The Deputy Assistant Director for Business and
   Fiscal Resources and the Director for the National Operations Center are
   the officials responsible for implementing the recommendation by March
   31, 2013.

   OIG Reply: We consider this recommendation resolved but not
   implemented (Appendix 3). The recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget for tracking.

5.	 Ensure that the entire EAP document is reviewed annually for accuracy
    and updated accordingly.

   BLM Response: BLM concurred with the recommendation. BLM will
   issue an instruction memorandum to require annual EAP updates and a
   review of emergency procedures, changes in land use, or other significant
   changes. The memorandum will include a checklist for annual EAP
   review and the BLM State Offices will be required to submit the checklists
   to the BLM dam safety officer through the BLM Dam Safety SharePoint
   site. The dam safety officer will monitor compliance with the annual
   update process. The Deputy Assistant Director for Business and Fiscal
   Resources is the official responsible for implementing the
   recommendation by March 31, 2013.

   OIG Reply: We consider this recommendation resolved but not
   implemented (Appendix 3). The recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget for tracking.




                                                                            14
NPS
We recommend that NPS:

   6.	 Adhere to a timeline and deadline for the completion and exercise of
       formal EAP documents.

      NPS Response: NPS concurred with the recommendation. As of
      September 30, 2012, NPS developed and exercised formal EAPs for 4 of
      its 11 high hazard dams. NPS established a target date of September 30,
      2014, for completing the EAPs for the remaining seven high hazard and
      three significant hazard dams. The NPS dam safety officer is the official
      responsible for implementing the recommendation.

      OIG Reply: We consider this recommendation resolved but not
      implemented (Appendix 3). The recommendation will be referred to the
      Assistant Secretary for Policy, Management and Budget for tracking.

BLM, NPS, and OSM
We recommend that BLM, NPS, and OSM:

   7.	 Require the preparation and issuance of an AAR after each incident or
       exercise and require the inclusion of a planned course of action to
       implement and track the recommended corrective actions in the AAR.

      7a. BLM Response: BLM concurred with the recommendation. BLM is
      currently supplementing BLM guidance and will issue an instruction
      memorandum to require the preparation and issuance of an AAR after
      every incident or EAP exercise, including a planned course of action, and
      the submission of the reports to the BLM dam safety officer through the
      BLM Dam Safety SharePoint site. The dam safety officer will monitor
      compliance with this requirement. The Deputy Assistant Director for
      Business and Fiscal Resources and the Director for the National
      Operations Center are the officials responsible for implementing the
      recommendation by January 31, 2013.

      7b. NPS Response: NPS concurred with the recommendation. AARs were
      completed for two high hazard dam EAP exercises. Requirements for
      AARs following an incident or exercise have been included in the draft
      NPS “Reference Manual 40” currently under NPS-wide review. The
      completion target date to finalize “Reference Manual 40” and establish a
      system for implementing and tracking the AAR recommended corrective
      actions is April 30, 2013. The NPS dam safety officer is the official
      responsible for implementing the recommendation.

      7c. OSM Response: OSM concurred with the recommendation. OSM
      considers this recommendation a subset of Recommendation 1. Therefore,



                                                                               15
     the target completion dates for Recommendation 1 also apply to this
     recommendation. The Assistant Director for Program Support is the
     official responsible for implementing the recommendation.

     OIG Reply: We consider this recommendation resolved but not
     implemented (Appendix 3) by BLM, NPS, and OSM. The
     recommendation will be referred to the Assistant Secretary for Policy,
     Management and Budget for tracking.

Dams Not Owned by BLM
We recommend that BLM:

  8.	 To the extent practicable, as BLM ROW agreements or permits that allow
      for dam operations are reviewed for renewal, amend them to include the
      FGDS requirements or appropriate dam safety and emergency
      preparedness terms and conditions.

     BLM Response: BLM concurred with the recommendation. BLM will
     identify high hazard dams authorized by ROW agreements, and will issue
     an instruction memorandum to require field offices to add the terms and
     conditions to ROW agreements, as they are renewed. As appropriate,
     BLM will examine these ROW agreements to determine if it is feasible
     and warranted to modify prior to expiration of the ROWs. The target date
     for issuance of the instruction memorandum is March 31, 2013. The
     Assistant Director for Minerals and Realty Management and the Director
     for the National Operations Center are the officials responsible for
     implementing the recommendation.

     OIG Reply: We consider this recommendation resolved but not
     implemented (Appendix 3). The recommendation will be referred to the
     Assistant Secretary for Policy, Management and Budget for tracking.

Dams Not Owned by NPS
We recommend that NPS:

  9.	 Ensure that NPS Regional Directors and Superintendents are requesting
      observer status during inspections and in the preparation and review of
      EAPs at non-NPS dams that could significantly affect park areas, in
      accordance with NPS “Reference Manual 40.”

     NPS Response: NPS concurred with the recommendation. NPS is
     working with other Federal agencies and has developed an initial
     inventory of dams owned by others on NPS lands. NPS is also developing
     an initial inventory of dams owned by others upstream from NPS lands
     whose failure could put people and resources at parks at risk. NPS will
     transmit to its regions and parks the inventory of dams it does not own but



                                                                                16
   that are located on NPS land and the policy for the regions and parks to be
   included in the preparation and review of non-owned dam EAPs and in the
   examination of these dams. The target date to transmit this information to
   the regions and parks is June 1, 2013. A report on the parks’ performance
   on meeting these requirements will be included in the “Dam Safety
   Program Annual Report”. The target completion date for this report is
   December 31, 2013, and every year thereafter. The NPS dam safety officer
   is the official responsible for implementing the recommendation.

   OIG Reply: We consider this recommendation resolved but not
   implemented (Appendix 3). The recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget for tracking.

10. Continue BLM and NPS’ efforts in addressing the inventory of non-BLM
    and non-NPS owned dams located on BLM or NPS lands, including
    determining the agreements in place that allow for the existence and
    operation of these dams and determining if these dams are being inspected
    and have EAPs in place.

   10a. BLM Response: BLM concurred with the recommendation. BLM
   will continue its efforts to update its inventory of dams it does not own but
   that are located on its lands. In April 2012, BLM issued an instruction
   memorandum to require field offices to annually update their inventory of
   privately-owned dams located on BLM lands. BLM will continue its work
   with the Interagency Committee on Dam Safety to determine the status of
   inspections and EAPs on dams BLM does not own. As stated in its
   response to Recommendation 8, BLM will identify which of the non-BLM
   high hazard dams have ROW agreements in place. The target completion
   date for updating its inventory of dams BLM does not own but that are
   located on its lands is January 31, 2013. The Deputy Assistant Director for
   Business and Fiscal Resources and the Director for the National
   Operations Center are the officials responsible for implementing the
   recommendation.

   10b. NPS Response: NPS concurred with the recommendation. NPS is
   working with BLM, U.S. Fish and Wildlife Service, and other Federal and
   State agencies to identify dams NPS does not own that are located on its
   lands. NPS is also working to identify dams it does not own that are
   located upstream from NPS lands whose failure could affect parks. NPS
   will continue working with the other Federal and State agencies for a
   common best approach to managing the risks of dams located on NPS
   lands but not owned by NPS, including the need for agreements with the
   dam owners. The NPS dam safety officer is the official responsible for
   implementing the recommendation by December 2015.




                                                                             17
   OIG Reply: We consider this recommendation resolved but not
   implemented (Appendix 3) by BLM and NPS. The recommendation will
   be referred to the Assistant Secretary for Policy, Management and Budget
   for tracking.

11. Revise the “Departmental Manual” to include a uniform approach to
    monitoring and emergency action planning for non-DOI dams located on
    DOI lands.

   BLM and NPS Response: BLM and NPS concurred with the
   recommendation. The BLM dam safety officer leads the Non-Federal
   Dams on Federal Lands Task Group (Task Group) of the Interagency
   Committee on Dam Safety. One of the Interagency Committee’s goals is
   to make recommendations to create a consistent Federal policy for
   addressing the safety concerns posed by nonfederal dams on Federal
   lands. Based on the Task Group’s findings, the USBR will use the Reduce
   Dam Safety Risk initiative to develop a uniform, DOI-wide approach to
   monitoring and emergency action planning for non-DOI dams located on
   DOI lands. USBR will take the lead in having the “Departmental Manual”
   modified as needed. The target date for the Task Group to provide its
   findings is December 31, 2014. The target date for USBR to initiate
   applicable “Departmental Manual” revisions is December 31, 2015.
   USBR’s Director for Security, Safety and Law Enforcement is the official
   responsible for implementing the recommendation.

   OIG Reply: We consider this recommendation resolved but not
   implemented (Appendix 3). The recommendation will be referred to the
   Assistant Secretary for Policy, Management and Budget for tracking.




                                                                          18
Appendix 1: Objective, Scope, and
Methodology
Objective
Our objective was to determine if emergency action plans (EAPs) are in place,
reviewed, updated, and exercised appropriately for the high hazard dams of the
Bureau of Land Management (BLM), National Park Service (NPS), and Office of
Surface Mining (OSM). The objective originally included reviewing EAPs to see
if the equipment and materials listed in the EAPs for high hazard dams are
accounted for and in working order. Due to the small size and remoteness of the
dams, however, and because the EAPs we reviewed included only a vendor listing
rather than an equipment listing, we limited the objective to a review of the EAPs.

Scope
We performed our evaluation in accordance with the “Quality Standards for
Inspection and Evaluation,” as put forth by the Council of the Inspectors General
on Integrity and Efficiency. We believe that the work performed provides a
reasonable basis for our conclusions and recommendations.

Our focus was to review the emergency preparedness of BLM, NPS, and OSM
high hazard dams. Our report also includes information on privately owned, high
hazard dams located on BLM and NPS lands, as well as high hazard nonfederal
dams over which OSM has no regulatory jurisdiction. We obtained the number of
high hazard dams, both bureau and non-bureau owned and regulated, from BLM,
NPS, and OSM. We obtained the number of privately owned dams on BLM land
from the Bureau of Reclamation’s (USBR) October 2009 “U.S. Department of the
Interior Independent Oversight Review” report for BLM. We did not perform a
review or substantiate the accuracy or completeness of the number of high hazard
dams reported.

Methodology
To accomplish the evaluation, we—

   •	 reviewed laws, rules, and regulations and BLM, NPS, and OSM policies
      for emergency preparedness as it relates to dam safety;
   •	 reviewed USBR’s 2009 and 2010 “U.S. Department of the Interior

      Independent Oversight Review” reports for BLM, NPS, and OSM;

   •	 reviewed the U.S. Department of the Interior (DOI), BLM, NPS, and OSM
      “Fiscal Years 2010 and 2011 Progress Report to Federal Emergency
      Management Agency on the Implementation of the Federal Guidelines for
      Dam Safety” reports;




                                                                                19
•	 obtained high hazard dam inventory listings from BLM and NPS, as well
   as the list of high hazard dams under the Federal Program regulated by
   OSM;
•	 obtained DOI’s annual average number of dam incidents from USBR;
•	 interviewed BLM, NPS, and OSM officials regarding emergency
   preparedness;
•	 attended one EAP orientation seminar and tabletop exercise;
• reviewed EAPs, after action reports, and other documents;
• obtained legal advice from our Office of General Counsel; and
•	 met with USBR officials to discuss the Reduce Dam Safety Risk initiative.




                                                                         20
Appendix 2: Office of Policy,
Management and Budget Response
The Office of Policy, Management and Budget response follows on page 22.




                                                                           21
                  United States Department of the Interior
                              OFFICE OF THE SECRETARY 

                                   Washington, DC 20240 



                                       NOV - 9 2012
Memorandum

To:           Kimberly Elmore
              Deputy Inspecto~G
                              era!e, Audits, Inspections, and Evaluations

From:         Rhea Suh       c ·         4ku~    .M.-f,f;-sJ
              Assistant Secretary- Po · y, Ma~a~e~t and Budget

Subject: 	    Response to the Office of Inspector General's Draft Evaluation Report, Bureau of
              Land Management, National Park Service, and Office ofSwface Mining
              Reclamation and Enforcement's Saftty ofDams: Emergency Preparedness
              (Report No. WR-EV-MOA-0015-2011)

Thank you for the opportunity to review and comment on the Office of Inspector General's
(OIG) draft evaluation report titled Bureau ofLand Management, National Park Service, and
Office ofSwface Mining Reclamation and Enforcement's Safety ofDams: Emergency
Preparedness (Report No. WR-EV -MOA-0015-2011). In the report, the OIG makes 11
recommendations: six recommendations are specific to the Bureau of Land Management
(BLM); three recommendations to the Office of Surface Mining Reclamation and Enforcement
(OSM); four recommendations to the National Park Service (NPS); and one recommendation to
the Bureau of Reclamation (Reclamation). In general, the bureaus concur with the
recommendations.

Attachment I provides a summary of the actions planned or taken by the bureaus to comply with
the recommendations as well as the contact information for the responsible officials and the
target dates of implementation. Attachment 2 provides technical comments.

If you have any questions about this response, please contact: LaVanna Stevenson, BLM Audit
Liaison Officer, at (202) 912-7077; Towanna Thompson, OSM Audit Liaison Officer, at
(202) 208-2726; Vera Washington, NPS Audit Liaison Officer, at (202) 354-1959; Elaine
Ferrari, Reclamation Audit Liaison Officer, at (303) 445-2788; or Alexandra Lampros, Financial
Specialist, at (202) 208-4427.

Attachments




                                                                                                 22
                                                                                   Attachment 1
                                                                                     Page1of6
                              Department of the Interior 

         Response to the Office of Inspector General Draft Evaluation Report 

   "Bureau of Land Management, National Park Service, and Office of Surface Mining 

      Reclamation and Enforcement's Safety of Dams: Emergency Preparedness" 

                        (Report No. WR-EV-MOA-0015-2011) 


Recommendation 1: OSM needs to establish a timeline and deadline for updating, as
appropriate, OSM regulations to include Federal Guidelines for Dam Safety (FGDS)
requirements for the non-primacy andprimacy States.

   Response: Concur
   OSM, in consultation with the Office of the Solicitor, will conduct a comprehensive legal,
   technical, and policy review of its authorities under the Surface Mining Control and
   Reclamation Act (SMCRA) and other applicable federal law. OSM will then initiate a
   rulemaking, as appropriate, to incorporate specific FGDS requirements.

   Target Completion Date:
      • 	 May 30,2013: Complete the legal, technical and policy review.
      • 	 June 30, 2013: Initiate rulemaking, as appropriate, to incorporate FGDS requirements
          into OSM regulations for dams subject to the SMCRA regulation.
      • 	 December 30,2013: Publish proposed rule, as appropriate.
      • 	 December 30,2014: Publish fmal rule, as appropriate.

   Responsible Official: Sterling Rideout, Assistant Director-Program Support

Recommendation 2: OSM should enforce and revise, as appropriate, the Technical Services
and Research -15, "Dam Safety Program", requirements so that the directive aligns with the
actions resulting from OSM's review and update ofits regulations conducted under
Recommendation 1.

   Response: Concur

   Target Completion Date: April 30, 2015: Revise Directive Technical Services and Research
   -15, Dam Safety Program, as necessary to reflect the final rule.

   Responsible Official: Sterling Rideout, Assistant Director-Program Support

Recommendation 3: ELM should ensure that emergency action plans (EAPs) are exercised
within 3 years ofdevelopment, in accordance ·with the BLM Manual.

   Response: Concur
   The BLM is currently supplementing its existing guidance, BLM Manual 9177, Maintenance
   and Saftty ofDams, on EAP and will issue an Instruction Memorandum (IM) to require Dam
   Safety Engineers to complete After Action Reports (AARs) for each dam exercise and
   submit the reports to the Dam Safety Officer through the BLM Dam Safety SharePoint
   site. The BLM Dam Safety officer will monitor compliance with the requirements in the
                                                                                                23
                                                                                  Attachment I
                                                                                    Page 2 of6
   BLM Manual9177, including the requirement to conduct EAP exercises within three years
   of development.

   Target Completion Date: March 31, 2013

   Responsible Official: Ann DeBlasi, Deputy Assistant Director, Business and Fiscal
   Resources and Ruth Welch, Director, National Operations Center

Recommendation 4: BLMshould correct Little Robber Dam's EAP and ensure that EAPs are
prepared in accordance with FGDS.

   Response: Concur
   The Wyoming State Engineer and the National Operations Center engineers are currently
   updating the Little Robber Dam EAP to include an official signature page and suggested
   critical elements (notification flow charts and inspection frequency guidelines). As noted in
   the report, the BLM has already taken the appropriate measures to ensure that other EAPs are
   consistent with Federal and the Department of the Interior (DOl) guidelines and will continue
   to do so.

   Target Date: March 31, 2013

   Responsible Official: Ann DeBiasi, Deputy Assistant Director, Business and Fiscal
   Resources and Ruth Welch, Director, National Operations Center

Recommendation 5: BLM should ensure that the entire EAP document is reviewed annually for
accuracy and updated accordingly.

   Response: Concur
   This recommendation will be addressed in conjunction with Recommendations 3 and 7. An
   IM will be issued to require annual EAP updates and a review of emergency procedures,
   changes in land use, or other significant changes. The IM will also include a checklist for
   annual EAP review and the BLM State Offices will be required to submit the checklists to
   the Dam Safety Officer by posting on the BLM Dam Safety SharePoint site. The BLM Dam
   Safety Officer will monitor compliance with the annual update process.

   Target Completion Date: March 31, 2013

   Responsible Official: Ann DeBiasi, Deputy Assistant Director, Business and Fiscal
   Resources

Recommendation 6: NPS should adhere to a timeline and deadline for the completion and
exercise offormal EAP documents.

   Response: Concur
   In fiscal year 2012, the NPS has developed and exercised formal EAPs for the following high
   hazard dams: Lily Lake Dam; Bear Gulch Dam; Ricks Estate Dam; and Nuclear Lake Dam.

                                                                                                 24
                                                                                 Attachment 1
                                                                                   Page 3 of6


   Target Completion Date: The NPS has established the following timelines for completing
   EAPs for the remaining high and significant hazard dams:
      • 	 September 30, 2013: Star Fort Pond Dam, Price Lake Dam, Trout Lake Dam, Bass
          Lake Dam, Virginia Kendall Dam and Hidden Lake Dam.
      • 	 September 30,2014: Upper Franklin Dam, Veterans Dam, Peaks of Otter Dam, and
          Rocky Oaks.

   Responsible Official: Mark E. Baker, NPS Dam Safety Officer

Recommendation 7: BLM, NPS, and OSM should require the preparation and issuance ofan
AAR after each incident or exercise and require the inclusion ofa planned course ofaction to
implement and track the recommended corrective actions in the AAR.

   OSM Response: Concur 

   This recommendation is a subset of Recommendation 1. 


   Target Completion Date:
      • 	 May 30,2013: Complete the legal, technical, and policy review.
      • 	 June 30, 2013: Initiate rulemaking, as appropriate, to incorporate FGDS requirements
          into OSM regulations for dams subject to the SMCRA regulation.
      • 	 December 30, 2013: Publish a proposed rule, as appropriate.
      • 	 December 30,2014: Publish a fmal rule, as appropriate.

   Responsible Official: Sterling Rideout, Assistant Director-Program Support

   NPS Response: Concur
   After action reports have been completed for the completed exercises for Lily Lake and Bear
   Gulch Dams. Requirements for AARs following an incident or exercise have been included
   in the draft Reference Manual 40, Dam Safety Program, currently under NPS-wide review.

   Target Completion Date: April30, 2013: Finalize the Reference Manual40 to include after
   action reports and establish a system for implementing and tracking the after action
   recommended con·ective actions.

   Responsible Official: Mark E. Baker, NPS Dam Safety Officer

   BLM Response: Concur
   As mentioned earlier, this recommendation will be addressed in conjunction with
   Recommendations 3 and 5. An IM will be issued to require the preparation and issuance of
   an AAR after every incident or EAP exercise, including a plarrned course of action, and
   require posting of documents to the Dam Safety SharePoint site. The BLM Dam Safety
   Officer will monitor compliance with this requirement.

   Target Completion Date: January 31, 2013

                                                                                                 25
                                                                                   Attachment 1
                                                                                    Page 4 of6
   Responsible Official: Ann DeBlasi, Deputy Assistant Director, Business and Fiscal 

   Resources and Ruth Welch, Director, National Operations Center 


Recommendation 8: To the extent practicable, as BLM rights-of-way (ROW) agreements or
permits that allow for dam operations are reviewed for renewal, amend them to include the
FGDS requirements or appropriate dam safety and emergency preparedness terms and
conditions.

   Response: Concur
   The BLM will identify high hazard dams authorized by ROW and will change the terms and
   conditions as feasible and appropriate to protect public health or safety or the environment.
   The BLM will identify the number of high-hazard non-Federally owned dams located on
   BLM land. Using recently collected non-owned darn data, the BLM will further identify
   which of those high-hazard dams have ROW agreements in place. The BLM will issue an
   IM that will require field offices to add the terms and conditions to ROW agreements, as the
   ROW agreements are renewed. The BLM will examine these ROW agreements and
   determine if it is feasible to add terms and conditions to a ROW prior to renewal if the
   situation warrants.

   Target Date: March 31, 2013, for issuance of the IM. As appropriate, the BLM will modify
   the terms and conditions upon expiration of the ROW agreements unless BLM determines
   that it is feasible and warranted to modify prior to expiration of the agreements.

   Responsible Official: Michael D. Nedd, Assistant Director, Minerals and Realty 

   Management and Ruth Welch, Director, National Operations Center 


Recommendation 9: Ensure that NPS Regional Directors and Superintendents are requesting
observer status during inspections and in the preparation and review ofEAPs at non-NPS dams
that could significantly affect park areas, in accordance with NPS Reference Manual 40.

   Response: Concur
   The NPS is working with several other Federal agencies and has developed an initial
   inventory of dams owned by others on NPS lands. The NPS is also developing an initial
   inventory of darns owned by others upstream from the NPS lands whose failure could put
   people at parks or park resources at risk if these dams were to fail.

   Target Completion Date:
      • 	 November 15, 2012: Transmit OIG audit finding and our initial list of non-owned
          dams to the Regional Dam Safety Coordinators.
      • 	 Apri130, 2013: Request engineering resources for initial and long-term management
          of the risks of these non-owned dams.
      • 	 April30, 2013: Revise chapter 20 of the draft Reference Manual40, Dam Safety
          Program, consistent with the above recommendation. Complete NPS internal
          reviews and finalize.
      • 	 April30, 2013: Develop a database and futther develop the inventory of non-owned
          dams that could affect the parks.
                                                                                                   26
                                                                                  Attachment 1
                                                                                    PageS of6
       • 	 June 1, 2013: Transmit dam inventory and policy/guidance to regions and parks
           about the need for being included on non-owned dam EAPs and to participate in the
           examinations of these dams. Include a request for communication to the Dam Safety
           Program to track accomplishment.
       • 	 December 31, 2013, and every year thereafter: Report on regions parks' performance
           on meeting these requirements in the Dam Safety Program Annual Report.

   Responsible Official: Mark E. Baker, NPS Dam Safety Officer

Recommendation 10: Continue ELM's and NPS' efforts in addressing the inventory ofnon­
ELM and non-NPS owned dams, including determining the agreements in place that allow for
the existence and operation ofthese dams and determining if these dams are being inspected and
have EAPs in place.

   NPS Response: Concur
   The NPS has been working with the BLM, the U.S. Forest Service, the U.S. Fish and
   Wildlife Service and other Federal and state agencies to identifY dams on NPS-lands.
   The NPS has also reviewed its' files, the NPS Dam Safety database, aerial imagery, and
   paper park maps to identifY non-owned dams whose failure could affect parks.

   Target Completion Date: December 2015: Continue working with the other Federal and
   state agencies for a common best approach to managing the risks of dams on our lands,
   including the need for agreements with the dam owners. Include these non-owned dams on
   our lands in the steps for Recommendation 9 above.

   Responsible Official: Mark E. Baker, NPS Dam Safety Officer

   BLM Response: Concur
   The BLM will continue its efforts to update its inventory of non-owned dams on its property.
   Pursuant to Departmental Manual 753, on April13, 2012, the BLM issued IM 2012-099
   entitled, "Identification of Privately Owned Dams on Bureau of Land Management (BLM)
   Lands," which requires field offices to update their inventory of privately owned dams that
   are located on BLM lands. Information for each dam is being compiled for the periodic
   updates to the National Inventory of Dams. The BLM will continue work on this issue
   through the efforts of its own Permitted Dams Team, which consists of engineers from
   various BLM State Offices.

   There are some limitations on BLM's abilities to inspect and regulate these privately owned
   dams. However, the BLM continues to address safety issues for these dams through the
   Interagency Committee on Dam Safety (ICODS). One goal of the ICODS is to make
   recommendations to create a consistent Federal policy for addressing the safety concerns
   posed by these dams as discussed in recommendation 1. The BLM Dam Safety Officer
   serves as a Task Group Lead.

   The BLM will continue its work with the ICODS to determine the status of inspections and
   EAPs on non-owned dams and develop recommendations to create a consistent Federal

                                                                                                  27
                                                                                 Attachment I
                                                                                   Page 6 of6
   policy for addressing safety concerns posed by these dams and will update its non-owned
   (permitted) dam inventory annually in response to IM 2012-099.

   Target Completion Date: January 31, 2013, for updating the inventory

   Responsible Official: Ann DeBiasi, Deputy Assistant Director, Business and Fiscal 

   Resources and Ruth Welch, Director, National Operations Center 


Recommendation 11: Revise the Departmental Manual (DM) to include a uniform approach to
monitoring and emergency action planning for non-DO! dams located on DOl lands.

   Response: Concur
   The Non-Federal Dams on Federal Lands Task Group (Task Group) of the ICODS is
   exploring this subject with a government-wide perspective. The BLM leads the Task Group,
   which is coordinating with the other departments and agencies that make up ICODS and with
   non-governmental organizations such as the Association of State Dam Safety
   Officials. Based on ICODS' findings, Reclamation will use the Enterprise Architecture
   Reduce Dam Safety Risk initiative to develop a Department-wide uniform approach to
   monitoring and emergency action planning for non-Department dams located on Department
   lands. Reclamation will take the lead in having DM 753 modified as needed to ensure
   departmental implementation of the uniform approach.

   Target Completion Date: The ICODS task group expects to provide available findings by
   December 31, 2014. Reclamation will initiate applicable DM revisions by
   December 31,2015.

   Responsible Official: David Achterberg, Director, Security, Safety and Law Enforcement,
   Bureau of Reclamation




                                                                                               28
                                                                                  Attachment 2
                                                                                    Page 1 of 1
Technical Comments:
   o 	 On page 2, first bullet under the USBR Evaluation Report section: The largest BLM high
       hazard dam has a capacity of"580 acre-feet" rather than 3,600 acre-feet.
   o 	 In Recommendation 10, the words "on BLM or NPS lands" should be added to the
       recommendation.

In addition, the following comments also apply:
    • 	 OSM wishes to clarify that the SMCRA and its implementing regulations impose
        significant safety standards on dams subject to regulation under the SMCRA. Among
        other things, 30 CFR 780.25 and 784.16 require detailed design plans for each
        impoundment and an engineering stability analysis and foundation investigation for each
        high-hazard and significant-hazard dam. Under 30 CFR 816.49 and 817.49, all high­
        hazard and significant-hazard dams must meet stringent emergency spillway criteria,
        must achieve minimum static and seismic safety factors, and must be examined weekly
        for the appearance of structural weakness and other hazardous conditions. In addition,
        these regulations require that if an examination discloses the existence of a potential
        hazard, either OSM in non-primacy states or the regulatory authority in a primacy state
        must be notified of that condition, the emergency procedures, and the planned remedial
        action formulated to protect the public.
    • 	 Further, all1 0 high-hazard dams for which OSM has direct permitting authority under the
        SMCRA (i.e., those located in non-primacy states) currently have emergency action
        plans.
    • 	 OSM agrees with the importance of ensuring the safety of operations at surface coal
        mining sites subject to regulation under the SMCRA. As noted in the OIG's draft rep01i,
        however, OSM' s authorities differ depending upon whether dams are located in primacy
        or non-primacy states subject to the SMCRA. In patiicular, it is unclear whether OSM
        may require primacy states to adopt performance standards incorporating the
        requirements of the FGDS. OSM will therefore review the relevant authorities and
        policies and undertake regulatory changes, as appropriate.




                                                                                                29
Appendix 3: Status of
Recommendations
   Recommendations                 Status        Required Action

1 – 6, 7a, 7b, 7c, 8, 9,   Resolved but not   No further response to
10a, 10b, and 11           implemented.       the Office of Inspector
                                              General is required.
                                              The recommendations
                                              will be referred to the
                                              Assistant Secretary for
                                              Policy, Management and
                                              Budget for tracking.




                                                                        30
                                   


            Report Fraud, Waste,                                     
            and Mismanagement
                                      
                 Fraud, waste, and mismanagement in
                 government concern    everyone: Office
               of Inspector General staff, Departmental
                employees, and the general public. We
                   actively solicit allegations of any
                          and wasteful practices, fraud,
               inefficient
                    and mismanagement related to
              
                Departmental or Insular Area programs
                                                        
                    and operations.  You can report
                   allegations to us  in several ways.
                                       
                                   
                                   
     By Mail:	         U.S. Department of the Interior  
                       Office of Inspector General  
                       Mail Stop 4428 MIB  
                       1849 C Street, NW  
                       Washington, D.C. 20240  
      
               
     By Phone:	        24-Hour Toll Free                               
                                                           800-424-5081
                       Washington Metro Area               202-208-5300
                                                                       
      
               
     By Fax:	          703-487-5402
      
     By Internet:	     www.doioig.gov
  
                                                                           
